"Partnership Review of Hospital Patient Transfers Potentially Paid as Discharges and Claimed Improperly Under the Illinois Medicaid Program," (A-05-00-00049)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Partnership Review of Hospital Patient Transfers Potentially Paid as
Discharges and Claimed Improperly Under the Illinois Medicaid Program,"
(A-05-00-00049)
June 18, 2001
Complete Text of Report is available in PDF format
(485 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This audit was performed jointly with the Office of Inspector General of the
Illinois Department of Public Aid and the Illinois Division of Medical Programs
as part of the Inspector Generals partnership efforts with States to expand
audit coverage of the Medicaid program. This final report points out that hospitals
claimed excessive Medicaid reimbursements by coding transfers to other prospective
payment hospitals as discharges (discharges usually qualify for higher reimbursement).
We estimate potential improper payments of approximately $2.3 million ($1.2
million Federal share) during the period July 1996 through February 2000. In
addition to financial adjustments, we recommended that the State agency provide
additional guidance to hospitals, emphasizing the importance of coding the correct
patient status at the time of discharge/transfer. We also recommended that the
State review the potential for effective controls in its claims processing system
to detect, monitor, and correct inpatient hospital claims improperly coded as
discharges.